<html>
<title> - H.R. 17, H. RES. 62, H.R. 1175, AND H. CON. RES. 75</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
          H.R. 17, H. RES. 62, H.R. 1175, AND H. CON. RES. 75

=======================================================================

                                 MARKUP

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                        THURSDAY, JUNE 10, 1999

                               __________

                           Serial No. 106-88

                               __________

    Printed for the use of the Committee on International Relations





                    U.S. GOVERNMENT PRINTING OFFICE
63-607 CC                   WASHINGTON : 2000




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Hillel Weinberg, Senior Professional Staff Member and Counsel
                    Marilyn C. Owen, Staff Associate



                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

Markup of H.R. 17, a bill to amend the Agricultural Trade Act of 
  1978 to require the President to report to Congress on any 
  selective embargo on agricultural commodities, to provide a 
  termination date for the embargo, to provide greater assurances 
  for contract sanctity, and for other purposes..................     1
Markup of H. Res. 62, a resolution expressing concern over the 
  escalating violence, the gross violations of human rights, and 
  the ongoing attempts to overthrow a democratically elected 
  government in Sierra Leone.....................................     4
Markup of H.R. 1175, a bill to locate and secure the return of 
  Zachary Baumel, an American citizen, and other Israeli soldiers 
  missing in action..............................................     9
Markup of H. Con Res. 75, a concurrent resolution condemning the 
  National Islamic Front (NIF) government for its genocidal war 
  in southern Sudan, support for terrorism, and continued human 
  rights violations, and for other purposes......................    12

                                APPENDIX

Prepared statements: 
The Honorable Sam Gejdenson, a Representative in Congress from 
  Connecticut, statement on H.R. 17..............................    24
The Honorable Sam Gejdenson, statement on H. Con. Res. 75........    25

Bills and Amendments:

H.R. 17..........................................................    27
H. Res. 62.......................................................    31
    Committee Print (as amended by the Subcommittee on Africa....    36
    Amendment to H. Res. 62 offered by Mr. Gejdenson.............    41
    Amendment to H. Res. 62 offered by Mr. Payne, a 
      Representative in Congress from New Jersey, on behalf of 
      Mr. Hastings a Representative in Congress from Florida.....    42
    Amendment to H. Res. 62 offered by Mr. Gejdenson, to replace 
      the first and second degree amendments previously offered 
      by Mr. Gejdenson and Mr. Payne (for Mr. Hastings)..........    44
1175.............................................................    45
    Amendment to H.R. 75 offered by Mr. Lantos, a Representative 
      in Congress from Califorina................................    49
H. Con. Res. 75..................................................    52
     Committee Print (as amended by the Subcommittee on Africa...
    Amendment to H. Res. 75 offered by Mr. Tancredo, a 
      Representative in Congress from Colorado...................    70
    Amendment to H. Con. Res. 75 offered by Mr. Payne............    71


H.R. 17, A BILL TO AMEND THE AGRICULTURAL TRADE ACT OF 1978 TO REQUIRE 
    THE PRESIDENT TO REPORT TO CONGRESS ON ANY SELECTIVE EMBARGO ON 
    AGRICULTURAL COMMODITIES, TO PROVIDE A TERMINATION DATE FOR THE 
 EMBARGO, TO PROVIDE GREATER ASSURANCES FOR CONTRACT SANCTITY, AND FOR 
                             OTHER PURPOSES

                              ----------                              Th
ursday, June 10, 1999


                       House of Representatives,

      Committee on International Relations,
                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10 a.m. in room 
2172, Rayburn House Office Building, Hon. Benjamin A. Gilman 
(chairman of the Committee) presiding.
    Chairman Gilman. The Committee will come to order.
    The Committee meets in open session today with regard to 
our markup session on H.R. 17, H.R. 1175, H. Res. 62 and H. 
Con. Res. 75.
    We will first consider H.R. 17, relating to agricultural 
embargoes.
    The Chair lays the bill before the Committee. The clerk 
will report the title of the bill.
    Ms. Bloomer. ``H.R. 17, a bill to amend the Agricultural 
Trade Act of 1978 to require the President to report to 
Congress on any selective embargo on agricultural commodities, 
to provide a termination date for the embargo, to provide 
greater assurances for contract sanctity, and for other 
purposes.''
    Chairman Gilman. Without objection, the first reading of 
the bill is dispensed with.
    The clerk will read the bill for amendment.
    Ms. Bloomer. ``Be it enacted by the Senate and House of 
Representatives of the United States of America and Congress 
assembled, section 1, Short Title.''
    Chairman Gilman. Without objection, the bill is considered 
as having been read is open to amendment at any point.
    I now recognize myself briefly.
    This bill was introduced by Mr. Ewing of Illinois and is 
identical to a bill that was passed late last year which was 
not referred to our Committee. The Speaker did refer the bill 
to us this year, however, as an additional Committee. The 
Committee of primary jurisdiction is the Committee on 
Agriculture. It was reported out of that Committee by unanimous 
vote.
    The bill provides that if the President provides for an 
economic embargo that selectively emphasizes agriculture, that 
the Congress would have the right to interpose a joint 
resolution providing for its termination.
    I don't believe that this bill significantly changes the 
balance of equities involved in the area of economic embargoes 
to any significant degree. However, this bill is important to 
the gentleman from Illinois, Mr. Ewing, as a symbol of 
congressional concern for American farmers and of the thought 
that they ought not to be singled out as bearing the burden of 
economic pressures against countries with which the United 
States is having difficulties.
    Mr. Lantos.
    Mr. Lantos. Thank you, Mr. Chairman.
    I am supporting this legislation and ask permission to 
include in the record Mr. Gejdenson's statement on this issue.
    Chairman Gilman. Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman.
    This is important legislation to this Member and many 
others, and I strongly support it and, in fact, am an original 
cosponsor of H.R. 17. This bill is identical to H.R. 4647, 
which passed the House by voice vote under suspension of the 
rules in the final days of the previous 105th Congress.
    I want to thank Chairman Gilman, International Economic 
Policy and Trade Subcommittee Chairwoman Ros-Lehtinen and the 
Democratic Ranking Member and others for moving this 
legislation, which is very important to those of us 
representing agriculture districts and states, and to thank 
them for doing it in a timely fashion.
    H.R. 17 takes the first steps toward rationalizing our 
sanctions policy by requiring the President to report to 
Congress on any selective embargo and agriculture commodities. 
The bill provides a termination date for any embargo and 
requires Congress to approve the embargo for it to extend 
beyond 100 days. It also provides greater assurance for 
contract sanctity.
    Unilateral embargoes of U.S. food exports cannot effect any 
real changes on the targeted country in most cases. All U.S. 
farmers have a right to be angry that they are being used by 
both executive and legislative branches over the years, not 
just now, to carry out symbolic acts so foreign policymakers 
can appear to be doing something about our toughest foreign 
policy problems.
    I remember the short supply embargo, for example, on 
soybeans under President Ford. It had a devastating impact, and 
it continues yet today on the competition it engendered in 
Brazil.
    When Congress and the President point the unilateral 
sanction gun at a foreign country, the gun most often gets 
pointed at the American farmer on the tractor simply trying to 
provide for his family. Right now we have as bad an agriculture 
condition as I have seen since 1984, with low commodity prices 
across the board, including all livestock sectors.
    Let me give you an example. Last year, the U.S. nearly lost 
a 300,000 metric ton wheat sale to Pakistan because of our 
unilateral nonproliferation sanctions on that country. Sensing 
our mistake, those of us concerned in Congress rushed to 
reverse that sanction just hours before the bids for the wheat 
sale were made. Had we not acted, I am sure the Australians, 
Canadians or French wheat farmers would have gladly become 
Pakistan's new primary supplier of wheat.
    H.R. 17 does not alter any current sanctions because it 
would only affect embargoes that apply selectively to 
agricultural products, like the one I mentioned by President 
Ford or the one for President Carter's ill-fated and totally 
ineffective grain embargo on the Soviet Union in 1980.
    H.R. 17 does nothing to restrict the President's ability to 
impose cross-sector embargoes or embargoes that apply to other 
U.S. export goods, including agriculture. H.R. 17 does not 
apply to multilateral embargoes.
    The Selective Agriculture Embargoes Act is a measured and 
responsible bill that protects the American farmer and the 
American agriculture sector from unnecessary harm, and I do 
urge its support and passage. Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Mr. Pomeroy.
    Mr. Pomeroy. Mr. Chairman, food should not be used as a 
weapon, and farmers should not be used as fodder in 
international disputes. This legislation, measured, limited but 
important, addresses selective agriculture embargoes. I was 
pleased to cosponsor--pleased to vote for its passage last 
October, and it did pass in a voice vote in the House. I am 
also pleased that this Committee this year has jurisdiction, 
concurrent with the Agriculture Committee, a Committee on which 
I also serve.
    I believe today's action of this Committee in approving 
this bill reflects a broad consensus that using food as a tool 
of international policy through embargoes is a failed policy, 
one that served us badly in the past, and should not be engaged 
in in the future.
    This legislation makes certain Congress is involved in the 
event should there be a selective agriculture embargo imposed 
and, I think equally importantly, places a 1-year timetable 
wherein it would need to be revisited by the Administration and 
Congress.
    I think sometimes some of our embargoes just languish and 
need to be sunsetted and revisited in terms of whether they are 
serving any particular effect, other than harm, to our farmers 
through diminishing our international export market 
opportunities, producing lower commodity prices back home.
    I would hope we could pass this out on a quick, unanimous 
vote and appreciate the Chairman's support of this bill.
    Chairman Gilman. Thank you, Mr. Pomeroy.
    Any other Members seeking recognition?
    If there are no other Members seeking recognition, the 
previous question is ordered. I recognize the gentleman from 
Nebraska, Mr. Bereuter.
    Mr. Bereuter. Mr. Chairman, I move that the Committee 
report the bill to the House with a recommendation that it be 
passed.
    Chairman Gilman. The question is now on the motion of the 
gentleman from Nebraska.
    Those in favor of the motion, signify by saying aye.
    Those opposed, indicate by saying no.
    The ayes have it. The motion is agreed to.
    Without objection, the Chair or his designee is authorized 
to make motions under Rule 22 with respect to a conference on 
this bill or a counterpart from the Senate.
    Chairman Gilman. We will now consider H. Res. 62 relating 
to Sierra Leone.
    The Chair lays the resolution before the Committee.

H. RES. 62, A RESOLUTION EXPRESSING CONCERN OVER THE ESCALATING 
VIOLENCE, THE GROSS VIOLATIONS OF HUMAN RIGHTS, AND THE ONGOING 
 ATTEMPTS TO OVERTHROW A DEMOCRATICALLY ELECTED GOVERNMENT IN 
                          SIERRA LEONE

    Ms. Bloomer. ``H. Res. 62, a resolution expressing concern 
over the escalating violence, the gross violations of human 
rights, and the ongoing attempts to overthrow a democratically 
elected government in Sierra Leone.''
    Chairman Gilman. This resolution was considered by the 
Subcommittee on Africa and reported with an amendment.
    Without objection, the language recommended by the 
Subcommittee on Africa, which is before the Members, will be 
considered as original text for the purpose of amendment, and 
without objection, the clerk will read the preamble and 
operative language of the Subcommittee recommendation.
    So ordered.
    Ms. Bloomer. Whereas the Armed Forces Revolutionary Council 
military junta, which on May 27----
    Chairman Gilman. Without objection, the Subcommittee 
recommended amendment is considered as having been read and is 
now open to amendment at any point.
    I will now recognize the gentleman from California, our 
distinguished Chairman of the African Subcommittee, Mr. Royce, 
to introduce the resolution and the amendment.
    Mr. Royce. Thank you, Mr. Chairman.
    This resolution addresses the tragic situation in Sierra 
Leone, where the democratically elected government of President 
Kabbah has been under siege by rebel forces. The RUF rebels, as 
the Africa Subcommittee has heard, have used despicable tactics 
of political terror against civilians, which does throw into 
serious question these forces' commitment to a peaceful and 
democratic Sierra Leone. We can only hope that the current 
cease-fire and ongoing political negotiations between the 
government and the RUF will produce a lasting political 
settlement.
    Today, Sierra Leone is suffering a humanitarian crisis, 
with hundreds of thousands of Sierra Leoneans having to flee 
their country. As this resolution notes, Sierra Leoneans are 
suffering from a lack of food and a lack of medicine.
    This resolution calls for an end to hostilities, which have 
the potential of destabilizing West Africa. It condemns the 
gross human rights violations that have shocked the world. 
There should be no doubt, it is the rebels that have been by 
far the greatest perpetrators of human rights violations in 
Sierra Leone. It calls on specific West African countries to 
cease providing military aid to rebel forces, thus aiding and 
abetting their carnage; and it calls on the U.S. to provide 
additional support for the Economic Community of West African 
States Military Observation Group (ECOMOG) forces that are 
providing a measure of stability in Sierra Leone.
    Clearly, the U.S. needs to do more for ECOMOG. In the 
Africa Subcommittee markup, Mr. Payne offered language calling 
for the appointment of a special envoy to Sierra Leone, which 
was adopted.
    The situation in Sierra Leone greatly concerns many Members 
of Congress. Over the last year, the Africa Subcommittee has 
held two hearings on this conflict. This resolution introduced 
by Mr. Payne reflects what this Subcommittee has learned 
through these hearings. I am pleased to note that every Member 
of the Africa Subcommittee is a cosponsor of this important 
resolution, and I urge its adoption.
    Mr. Chairman, I yield back the balance of my time.
    Chairman Gilman. Thank you, Mr. Royce.
    Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Let me thank you, Mr. Chairman, and Ranking Member 
Gejdenson and, of course, the Chairman of the Africa 
Subcommittee, Mr. Royce, for calling this markup on Sierra 
Leone.
    I am pleased that a cease-fire was called and that, 
finally, serious negotiations are beginning in Lome, Togo. I am 
concerned, however, that the latest stalling by both sides has 
been problematic.
    This war is about resources, who controls the resources in 
the diamond regions in the south/eastern part of the country, 
rather than the whole question of the people of Sierra Leone, 
who should control it.
    I know that the root causes of the impending crisis are 
based on two political and social problems: First, the colonial 
powers propping up corrupt leaders while turning a blind eye 
when the leaders fill their own coffers; and, second, the 
failure to meet the basic needs of the people. They predicted 
this very thing would happen if the then-President Momoh and 
now President Kabbah continued and repeatedly failed to educate 
the children, provide infrastructure and give adequate health 
care to the people living in the north.
    You can ask any Sierra Leonean and they will tell you that 
there seems to be two countries, Freetown and the rest of the 
country. Over the last 30 years, mismanagement and corruption, 
coupled with 10 years of ostracizing the north, has caused the 
war to spiral out of control.
    The failure to address these problems has created a 
division between young and old, countryside against town. A 
deeper reconciliation of all segments of Sierra Leone society 
will be required. I agree we need to protect the innocent 
citizens, but peace should be our primary goal.
    I know the government is hesitating about sharing power 
with the RUF and the AFRC, but in order to have peace there 
must be an unconditional release of Corporal Foday Sankhoy. 
These things are issues that must be worked out.
    I still believe we need a special envoy in the region, and 
I think that would have a lot to do with moving this process 
forward. I think the failure to engage with the neighbors in 
the region--Guinea, Ghana, Liberia and Burkina Faso--early on 
has prevented this from happening, and we could have used the 
resources there.
    So, once again, we would like to see this negotiation move 
forward. We have had tough places before like this in Namibia 
and Mozambique, but we were able to overcome these problems.
    With that, I yield back the balance of my time.
    Chairman Gilman. Thank you, Mr. Payne.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman.
    I just have a technical amendment. The purpose of the 
amendment to H. Res. 62 regarding the war in Sierra Leone is to 
update the resolution and recognize the progress that has been 
made.
    Since the Africa Subcommittee marked up the bill in late 
May, the government of Sierra Leone and the rebel AFRC/RUF 
agreed to a cease-fire agreement that went into effect May 25, 
1999. The cease-fire talks evolved into ongoing peace talks and 
have begun to bear fruit. The 8-year-old war in Sierra Leone 
has claimed 20,000 lives, left hundreds of others maimed and 
displaced hundreds more; and we should recognize this progress.
    Chairman Gilman. The clerk will report the amendment.
    Ms. Bloomer. ``Amendment offered by Mr. Gejdenson.
    Page 3, strike lines 2 through 4 and insert the following:
    One, welcomes----''
    Chairman Gilman. I ask unanimous consent that the reading 
of the amendment be dispensed with.
    The gentleman will make a motion.
    Anyone want to be heard on the amendment? Mr. Payne.
    Mr. Payne. Mr. Chairman, I move to strike the last word.
    Chairman Gilman. The gentleman is recognized for 5 minutes 
on the amendment.
    Mr. Payne. I am offering an amendment to the amendment that 
is authored by Mr. Hastings.
    The amendment to the amendment basically goes to----
    Chairman Gilman. Mr. Payne, if you will withhold, the clerk 
will report the amendment.
    Ms. Bloomer. ``Amendment offered by Mr. Payne.
    Whereas on May 18, 1999, President Kabbah of Sierra Leone--
--''
    Chairman Gilman. I ask unanimous consent that further 
reading of the amendment be dispensed with.
    Reserving a point of order on the amendment, we just want 
to review the amendment.
    Will the clerk distribute the amendment?
    The gentleman is recognized for 5 minutes on his amendment.
    Mr. Payne. Thank you, Mr. Chairman.
    The gentleman from Florida, Mr. Hastings, is offering this 
amendment to commend the signing of the cease-fire agreement 
and urge a swift solution to the crisis in Sierra Leone. The 
amendment goes forward once again commending the principals in 
this situation, talking about dialogue for peace to start on 
May 25. It goes on to recognize and commend those Sierra 
Leoneans who have demonstrated their love for peace, law and 
order.
    It supports the signing of the cease-fire on May 18. It 
urges all parties to remain constructively engaged in the peace 
process and make rapid progress to bring into effect a peaceful 
and lasting solution to the crisis.
    It commends the Rev. Jesse Jackson, the Presidential 
special envoy, for the promotion of democracy in Africa. It 
also commends ECOMOG and the Secretary General of the OAU, and 
encourages all parties to implement the Abidjan Peace Accords; 
urges the U.S. Government to appoint a special envoy and urges 
the U.S. Government and the international community to continue 
to work with all parties to ensure a lasting peace that will 
end the conflict in Sierra Leone.
    I think it simply embellishes on the resolution, and I ask 
for its approval.
    Mr. Royce. Mr. Chairman.
    Chairman Gilman. Mr. Royce.
    Mr. Royce. I thank you, Mr. Chairman.
    I have to oppose this amendment offered by my colleague 
from New Jersey.
    Today, we are looking at a resolution that has been marked 
up by the Africa Subcommittee. Our resolution is the product of 
considerable work. In fact, it is the product of months and 
months of work by staff and Members. In fact, we have probably 
spent more time on this resolution than we have on anything 
else that has come before our Committee; and, as a result of 
this, it enjoys the cosponsorship of all the Members of the 
Africa Subcommittee--all of the Members. To accept a substitute 
at this time, a three-page substitute, would be wholly 
inappropriate, not even delving into the content; but let me 
speak to that for a minute, too, if I could.
    I would like to briefly read a letter from Ambassador Leigh 
of Sierra Leone who wrote me recently.
    ``The passage of House Resolution 62 today will continue 
this exemplary work of the Subcommittee and con- tribute to 
establishing a durable peace and institutionalizing democracy 
not only in Sierra Leone but in Africa.'' He writes, ``I 
sincerely hope that this resolution will be passed in its 
original form.''
    That is from the Sierra Leone, Ambassador and comes from 
the representative of a democratically elected government with 
whom the United States is aiding and fighting off a rebel group 
that has used tactics that are quite questionable, tactics such 
as hacking off hands and limbs and lips of victims.
    The Africa Subcommittee has done its work. It has closely 
examined the issue, and I would really urge us to move on and 
pass our resolution. I will come back to this, but let me make 
those points at the outset, if I could, and reserve the balance 
of my time, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Royce.
    Any other Members seeking recognition? No other Members 
seeking recognition?
    Mr. Payne. Mr. Chairman.
    Chairman Gilman. Mr. Payne.
    Mr. Payne. I was going to ask the gentleman from California 
to yield, but I would just once again like to reiterate that 
this resolution, authored by Mr. Hastings, basically does 
nothing to alter the work of the Committee. As a matter of 
fact, Mr. Hastings was also involved in the Committee work.
    It simply highlights the people involved. It urges us to 
move forward. It commends those who have worked hard; and, 
also, I think that it commends the Rev. Jesse Jackson, who was 
the one who brought all the countries together that were not 
speaking. He called a meeting with Charles Taylor from Liberia 
and President Kabbah and the President of Guinea, and has 
worked tirelessly and again was an instrument for bringing the 
groups together, similar to his delivering of the three 
prisoners of war from Kosovo.
    I just think that it is appropriate to commend those 
persons who have had involvement and ask our government to 
appoint a special envoy and hope that we work for a lasting 
peace. I really don't see anything contradictory to the 
resolution that was offered by the Chairman and myself.
    So I will once again urge, Mr. Chairman, that we support 
the resolution.
    Mr. Lantos. Mr. Chairman.
    Chairman Gilman. Mr. Lantos.
    Mr. Lantos. Mr. Chairman, I want to associate myself with 
the comments of my colleague, Mr. Payne. I think this is a 
perfectly appropriate amendment, and I urge my colleagues to 
support it.
    Chairman Gilman. Thank you, Mr. Lantos.
    Any other Member seeking recognition? Mr. Royce.
    Mr. Royce. Mr. Chairman, reclaiming the balance of my time. 
This is an extremely delicate situation for a resolution of 
this nature where we have worked out something unanimously, 
where every Member is a coauthor on the Subcommittee of the 
resolution. To have this three-page alternative at the 11th 
hour is, in my view, inappropriate.
    I urge that we stick with the original resolution passed 
out of the Africa Subcommittee. I would urge my colleagues to 
do so, and I thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Royce.
    Mr. Gejdenson. Mr. Chairman.
    Chairman Gilman. Mr. Gejdenson.
    Mr. Gejdenson. Might I suggest and ask unanimous consent 
that maybe Mr. Royce and Mr. Payne could sit down and work out 
the language? Because I don't think there is a great difference 
here on the substance, to my sense.
    How much more business do we have before us? Two more 
bills?
    Chairman Gilman. We have two more measures.
    Mr. Gejdenson. If I could ask unanimous consent to skip 
over this one for the moment and have Mr. Payne and Mr. Royce 
or their staffs sit down and come back to us with agreed- upon 
language. I think that if there is no objection, I would ask 
unanimous consent to do that.
    Mr. Royce. Could I respond?
    Chairman Gilman. The Chair will entertain that as a 
reasonable request.
    Mr. Royce. If I could respond. If some of these, Mr. Payne, 
could be offered as discrete amendments rather than a wholesale 
three-page substitute then I think we could work together in 
the ensuing minutes to attempt to work out an agreement.
    Chairman Gilman. The Chair then will lay aside this measure 
momentarily to give Mr. Payne and Mr. Royce an opportunity to 
try and work it out before we conclude with our markup.
    Mr. Payne. Thank you.
    Just for clarification, Mr. Chair, this is simply an 
amendment. It is not a substitute, Mr. Royce, to the 
resolution. It is simply an amendment, and the resolution as 
written by Mr. Royce will remain.
    Chairman Gilman. We will proceed to H.R. 1175. Mr. Royce 
and Mr. Payne will meet in the interim to try to work out the 
problem.
    Chairman Gilman. The Committee will now consider H.R. 1175, 
relating to efforts to secure the return of Zachary Baumel, an 
American citizen.
    The Chair lays the bill before the Committee. The clerk 
will report the title of the bill.

 H.R. 1175, A BILL TO LOCATE AND SECURE THE RETURN OF ZACHARY 
BAUMEL, AN AMERICAN CITIZEN, AND OTHER ISRAELI SOLDIERS MISSING 
                           IN ACTION

    Ms. Bloomer. ``H.R. 1175, a bill to locate and secure the 
return of Zachary Baumel, an American citizen, and other 
Israeli soldiers missing in action.''
    Chairman Gilman. Without objection, the first reading of 
the bill is dispensed with.
    The clerk will read the bill for amendment.
    Ms. Bloomer. ``Be it enacted by the Senate and House of 
Representatives of the United States of America in Congress 
assembled, section 1, Congressional Findings.''
    Chairman Gilman. Without objection, the bill is considered 
as having been read and is open for amendment at any point.
    This bill was not referred to the Subcommittee.
    I would now recognize its sponsor, the gentleman from 
California, Mr. Lantos, for 5 minutes. If the gentleman has an 
amendment, I would recognize him to offer it either now or at 
the conclusion of his remarks. Mr. Lantos.
    Mr. Lantos. Thank you very much, Mr. Chairman. My 
amendments are purely technical.
    Chairman Gilman. The clerk will read the amendment. The 
clerk will distribute the amendment.
    Ms. Bloomer. ``Amendment offered by Mr. Lantos to H.R. 
1175. Changes are made on page 2, line 12; page 2, lines 24 
through 25; and page 3 line 1.''
    Chairman Gilman. Without objection, the amendments are 
included and are considered as having been read.
    The gentleman is recognized for 5 minutes on his amendment.
    Mr. Lantos. Thank you very much, Mr. Chairman.
    I want to thank you, Mr. Gejdenson, and other colleagues on 
the Committee for cosponsoring my legislation.
    It is a noncontroversial and straightforward piece of 
legislation, calling on the Department of State to continue to 
do everything in its power to obtain the release of an American 
citizen, Zachary Baumel, who was captured during military 
activities in 1982, whose whereabouts are somewhat in doubt, 
but it is our judgment that he is being held against his wish 
as a prisoner of war. Several of us have met with Members of 
his family on repeated occasions.
    This is a profoundly humanitarian and noncontroversial 
issue, and I urge all of my colleagues to support it.
    I yield back the balance of my time.
    Chairman Gilman. I want to thank our colleague, Mr. Lantos, 
for sponsoring this measure. I was pleased to be a cosponsor of 
it.
    I have worked closely with the Baumel, Feldman and Katz 
families since 1983, to try to locate and secure the return of 
their sons from the battle of Sultan Yakub in Lebanon's Bekaa 
Valley in 1982 in which they were engaged with Syrian forces. 
Tomorrow will mark the 17th anniversary of that tragic day in 
which these soldiers were declared as missing.
    H.R. 1175 emphasizes the importance that Congress places on 
helping those families locate their sons. We are hoping the 
State Department appreciates the priority we give to this 
critical humanitarian issue.
    An amendment will be offered reflecting language that has 
been negotiated with the State Department which requires the 
Department of State to raise the matter of Zachary Baumel, 
Yehuda Katz and Zvi Feldman with appropriate government 
officials of Syria, Lebanon, the Palestinian authority and with 
other governments which may be helpful in locating and securing 
the return of those soldiers.
    It also will require a written report and followups from 
the Department to this Committee and our counterpart in the 
other body.
    H.R. 1175 further notes that our Nation should take into 
consideration the willingness of regional governments to assist 
in locating and securing the return of these soldiers when 
reviewing U.S. financial assistance programs.
    Regrettably, despite the fact that the Syrian government is 
in a position to assist with the investigation, appeals to 
President Hafiz al-Assad have gone unanswered. Inquiries to PLO 
Chairman Yasser Arafat have also hit a dead end. Nonetheless, 
Congress continues to be extremely concerned about the lack of 
resolution of these cases and wants to ensure that the 
Administration will utilize all available avenues in order to 
return these men to their families.
    Accordingly, I urge our colleagues' support for this 
measure, as amended.
    Is there any other Member seeking recognition?
    Mr. Gejdenson.
    Mr. Gejdenson. Mr. Chairman, I just want to commend Mr. 
Lantos for once again taking the lead on an important human 
rights issue. The families in this case are tormented by 
uncertainty.
    I know others as well have raised this issue with leaders 
in the Middle East. I am hopeful that with the change in 
government and a reinvigoration of the peace process, that 
particularly President Assad and others who may be able to shed 
light on this situation will take this small act as a genuine 
step of confidence building and humanitarian response by 
helping these families resolve this terrible situation.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Mr. Wexler.
    Mr. Wexler. Thank you, Mr. Chairman.
    I, too, would like to rise in strong support of H.R. 1175, 
introduced by Congressman Lantos.
    Mr. Chairman, as has been stated, for 17 years the fate of 
the three Israeli missing soldiers has remained a mystery that 
has haunted their families and their nations. It was on June 
11, 1982 that Zachary Baumel, a dual American/Israeli citizen, 
and others were captured in northeastern Lebanon in a battle 
with Syrian and Palestinian forces.
    The PLO had custody of the three soldiers for the first 
year and a half of their captivity. When a pro-Syrian faction 
split with the PLO they took the three Israeli soldiers with 
them, and their whereabouts have yet to be determined.
    The Syrian government currently claims that they have no 
knowledge concerning the fate of the soldiers. However, western 
journalists and Syrian radio reported that the three soldiers 
were paraded through Damascus several hours after they were 
captured.
    Three weeks later, the Syrian secret police delivered four 
bodies for burial to the Jewish cemetery in Damascus, claiming 
they were the bodies of the Israeli soldiers. The Syrians also 
provided name tags which Israeli intelligence sources reported 
were supplied by the PLO's Fatah faction. Fifteen months later, 
the Red Cross exhumed the four graves, finding only one Israeli 
body.
    The most recent evidence indicates that Zachary Baumel may 
be alive came from PLO Chairman Yasser Arafat, who in 1993 
delivered half of Zachary Baumel's dog tags to Israeli 
officials. Chairman Arafat promised that more information was 
forthcoming, but he has provided none.
    As recently as 1997, information has been obtained that 
Baumel, along with the other two Israeli soldiers, may still be 
in custody in Syrian-controlled Lebanon.
    With the imminent resumption of the Middle East process, 
the State Department must urge the Syrian and the Lebanese 
governments, along with Chairman Arafat, to secure the 
information that will aid in the search for the missing 
soldiers. The State Department must make it clear to these 
governments that their willingness to assist all efforts to 
search for the missing soldiers should and must be considered 
among other factors in the provision of American aid and 
foreign assistance to these nations.
    I, along with the Chairman, Congressman Lantos, and many 
others have had the privilege of meeting with Zachary Baumel's 
parents. They hold hope, as I do, that their son and the others 
may still be alive. One can only imagine the pain of these 
parents and the uncertainty that they have felt for 17 years, 
not knowing the status of their sons.
    Mr. Chairman, I respectfully urge my colleagues to support 
House Resolution 1175. Thank you.
    Chairman Gilman. Thank you, Mr. Wexler.
    Any other Member seeking recognition on this measure?
    If there is no other Member seeking recognition, I would 
just like to note and pursue here with the Administration that 
we have been trying to get an opportunity to review the cable 
traffic between the State Department and other nations with 
regard to this issue, and they have been reluctant to forward 
this information to our Committee. I just want the Members to 
know that we are asking that this information be made available 
to our Committee here in the House, either in our offices or in 
the Intelligence Committee offices, so that Members will have 
an opportunity to explore and read the full cable traffic on 
this issue.
    If there is no further Member seeking recognition on this 
measure, the gentleman from Nebraska, Mr. Bereuter, is 
recognized to offer a motion.
    Mr. Bereuter. Mr. Chairman, I want to say, Mr. Lantos, I 
had hoped to be a cosponsor. I think that I am, but I would 
appreciate if your staff would check on that for me.
    Mr. Chairman, I move that the Chairman be requested to seek 
consideration of the bill as amended on the suspension 
calendar.
    Chairman Gilman. The question is now on the motion of the 
gentleman from Nebraska, Mr. Bereuter. Those in favor of the 
motion, signify by saying aye. Those opposed, say no.
    The ayes have it. The motion is agreed to.
    Without objection, the Chair or his designee is authorized 
to make motions under Rule 22 with respect to a conference on 
this bill or a counterpart from the Senate. Further proceedings 
on this measure are now postponed.
    Chairman Gilman. We will now proceed with H. Con. Res. 75, 
relative to the National Islamic Front government of Sudan.
    The Chair lays the resolution before the Committee.
    The clerk will report the title of the resolution.

    H. CON. RES. 75, A CONCURRENT RESOLUTION CONDEMNING THE 
 NATIONAL ISLAMIC FRONT (NIF) GOVERNMENT FOR ITS GENOCIDAL WAR 
 IN SOUTHERN SUDAN, SUPPORT FOR TERRORISM, AND CONTINUED HUMAN 
           RIGHTS VIOLATIONS, AND FOR OTHER PURPOSES

    Ms. Bloomer. ``H. Con. Res. 75, a concurrent resolution 
condemning the National Islamic Front government for its 
genocidal war in southern Sudan, support for terrorism, and 
continued human rights violations, and for other purposes.''
    Chairman Gilman. This resolution was referred to our 
Subcommittee on Africa and reported by it to the Full Committee 
with an amendment in the nature of a substitute.
    Without objection, the Subcommittee-recommended language 
will be treated as original text for the purposes of an 
amendment.
    The clerk will read the preamble and the operative language 
in the Subcommittee recommendation in that order for amendment. 
The clerk will read.
    Ms. Bloomer. ``Whereas, according to the United States 
Committee for Refugees an estimated 1,900,000 people have died 
over the past decade----''
    Chairman Gilman. Without objection, the Subcommittee 
recommendation is considered as having been read and is now 
open to amendment at any point.
    I now recognize the gentleman from California, the 
distinguished Chairman of our Subcommittee on Africa, Mr. 
Royce, to introduce it to the Committee. Mr. Royce.
    Mr. Royce. I thank you, Mr. Chairman. This resolution 
brings much needed attention to the terrible situation in 
Sudan, where war incredibly has led to the deaths of some 1.9 
million people--1.9 million Sudanese who have died over the 
past decade in that war. The vast majority have not been 
combatants. They have been innocent women and children in the 
south who have been cruelly subjected to starvation and to 
disease, as food has been used as a weapon against them.
    As the Africa Subcommittee and the Human Rights 
Subcommittee heard 2 weeks ago, the humanitarian crisis in 
Sudan remains severe. This resolution pulls no punches. The 
Sudanese government, it states, is committing genocide. The 
Sudanese government has also been engaged in slavery. This is 
consistent with its international behavior. Sudan is classified 
as a terrorist state by the State Department.
    This resolution condemns the Sudanese government for its 
genocidal war in southern Sudan and its support for terrorism, 
deplores the government-supported slave trade in Sudan and 
calls for increased and more effective aid efforts in southern 
Sudan.
    The United States, this resolution suggests, must play a 
key role in attempting to bring peace to southern Sudan. I want 
to commend you, Mr. Chairman, for your interest in this 
tragedy. I especially want to commend Mr. Payne, the author of 
this resolution, as well as Mr. Meeks, who strengthened this 
resolution's humanitarian aid clauses in the Subcommittee's 
markup.
    I thank you, Mr. Chairman. I yield back the balance of my 
time.
    Chairman Gilman. Thank you, Mr. Royce.
    Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman. Let me thank you for 
bringing up H. Con. Res. 75 and, as you have heard, this has 
been a very, very serious issue for many years. My first visit 
to southern Sudan was in 1993, with then Congressman Johnson 
from Florida, and last year, with Congressman Campbell and just 
this past weekend with our new colleague, very courageous and 
interested person, Congressman Tom Tancredo from Colorado. This 
has been an issue that for many years has been troubling to 
many of us who have been on this Committee for some time, and I 
am glad now that it is starting to get the attention. Senator 
Brownback on the other side is also championing this cause with 
a number of his colleagues.
    We had an opportunity to go to Loki, a border town in the 
area between Kenya and Sudan, and then to Yei and Labone, both 
in Southern Sudan, just this past weekend.
    We must conclude that the repression of the dictatorship of 
the NIF government is wrong: the use of shamanian laws 
throughout the country, the fact that food is used as a weapon, 
the fact that slavery is condoned by the government, the fact 
that the Dinka people and other southern Sudanese are having 
their dignified culture destroyed and compromised by virtue of 
having to live in refugee camps, the fact that the government 
of Sudan used the old Russian antonov planes to bomb civilians. 
We visited a hospital that was only bombed 2 or 3 weeks ago. We 
were unsure whether bombs would be dropped on us as we visited 
the south of Sudan.
    So this is a situation that cannot be tolerated any longer. 
It is something in which we must ask our government to really 
become more engaged and involved.
    Just the other day, the government dropped 6 bombs, hitting 
14 houses, killing 24 people. These weapons are used against 
innocent people. The support also of the Lord's Resistance Army 
in North Uganda, an army that abducts children and uses them 
against the Uganda Army, is another terrible practice which the 
government, the NIF government in Khartoum, condones. So we 
have seen children who are branded like cattle and used as 
chattel and sometimes sold for as little as $15 apiece, while 
the government there is not only condoning it, it encourages 
it.
    This resolution calls on the Administration to report to 
Congress within 3 months about the U.S. effort to end slavery. 
It calls on the U.N. to investigate this issue. The U.N. has 
not been stepping up to the plate on this dreaded issue. Sadly, 
the north doesn't see anything wrong with this policy and, 
therefore, we need to do all we can to bring down the 
government.
    If 1.9 million people and 4 million have been displaced 
over the past 2 decades, if Milosevic could be brought up on 
war crimes, I think that the same thing for the Al-Bashir and 
el ta-ra-bee government should be considered.
    So once again, Mr. Chairman, this is something that's gone 
on too long. There has not been indignation from the countries 
of the West or the United States. It is time for us to say 
enough is enough. It is time for us to step forward and say 
that as we move into a new millennium there is no way that we 
can allow this practice to continue, to be condoned. We must do 
everything within our power to see that this pariah government 
somehow gets the message that we will not condone this any 
longer.
    With that, I yield back the balance of my time.
    Chairman Gilman. Thank you, Mr. Payne.
    Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman. I strongly support 
this resolution. I commend the gentleman for bringing it up. I 
think that beyond this resolution, we may have to look at more 
aggressive approaches to try to deal with the situation, 
perhaps at least exploring the possibility of multilateral aid 
to the resistance fighters.
    Keep in mind that as has been pointed out, 1.9 million have 
been killed. That is greater than the entire population of 
Kosovo. I realize that this government in Khartoum cloaks 
itself in the religious fervor and piety of Islam. The United 
States can certainly not be accused of being anti-Islamic. We 
just fought for the rights of the Muslim Kosovars against 
oppression that tried to cloak itself in the religion of 
Christianity.
    So I strongly support the resolution and hope that we are 
willing to take even additional steps to bring justice to 
Sudan.
    Chairman Gilman. Thank you, Mr. Sherman.
    Mr. Tancredo.
    Mr. Tancredo. Thank you, Mr. Chairman. I want to just say 
how much I appreciate the opportunity to have participated on 
the CODEL. It was actually my first CODEL as a Member of 
Congress, and it was certainly a challenging one, a challenging 
experience in a number of ways, not the least of which was to 
have to deal with, to observe the plight of the people in the 
Sudan and feel relatively incapable of doing anything 
immediately to relieve the terrible, terrible, problems that 
face these very valiant people.
    I was especially encouraged to hear the comments of Mr. 
Sherman, when he talked about the possibility of having to do 
something perhaps beyond this, something more direct in terms 
of aid directly to the SPLA or to NDA, because I agree with him 
that it may very well be the next step we have to take.
    Frankly, to put this in a nutshell, I believe that what is 
happening in the Sudan makes Kosovo look like a Sunday school 
picnic, and the fact that we have been able to devote as much 
of our resources and attention to the problems in Kosovo 
without even a mention of the situation in the Sudan, is to me 
unacceptable and abhorrent. These people have been suffering 
for a much longer period of time. Far more people have been 
killed. Far more people have been displaced, and they suffer 
every day, the torture, not only the physical dangers in which 
they are placed, the physical effect of the war, but the 
psychological torture of knowing that every single day they can 
be bombed. These terrorists activities of the north continue. 
You listen constantly for the noise of the antonov bomber 
overhead. Everybody is doing it. While we were there, we were 
doing it. You are always wondering about whether or not it is 
going to be there.
    The people gather around you in marketplaces because they 
feel that perhaps if they are near you somehow or another they 
won't be bombed, that if Americans are there, American 
Congressmen are there, they will be safe for a moment or two.
    How would you like to live like that every day of your 
life, 24 hours a day, in fear of that sound--they will see the 
goats begin to run because the goats can hear it before the 
people can. The goats run and the people start to run. 
Everywhere we were, we had to be told where the bomb shelter 
was. At whatever location we were taken to for any discussions, 
we had to know where the bomb shelter was next to us so that we 
could get there quickly. These people live like that every 
single day.
    So I just want to say, again, Mr. Chairman, thank you for 
the opportunity you gave me and thank my colleagues for the 
opportunity that they gave me to go on this trip and to be 
perhaps a tiny part of a solution for these people.
    Chairman Gilman. Thank you, Mr. Tancredo. I would like to 
commend you as a freshman Member for going to this garden spot 
on your first visit, and we hope that you will engage in more. 
I would like to encourage our newer Members to be engaged in 
our CODELS that are intended to educate us all to a greater 
extent.
    With regard to that, before we move on, I would like to 
remind our Members that we do have an important delegation 
visiting us from the Council of Europe. They will be meeting 
with this Committee at 2 p.m. today in room H-139. The Council 
of Europe is a preeminent European institution working on 
democracy, on human rights and the rule of law, and I would 
like to encourage our Members to please join us in that 
meeting.
    Mr. Lantos.
    Mr. Lantos. Thank you, Mr. Chairman. I want to commend my 
good friend from New Jersey, our distinguished colleague, for 
offering this resolution, and I wish to identify myself with 
his observations. I would also like to make a comment to our 
friend from Colorado. I was very moved by his observations.
    During the course of the last 80 days or so, a lot of 
people have raised the issue of why we have participated in the 
military activities in Kosova while, in areas where much larger 
scale human rights violations have unfolded, we have done 
nothing. The answer, of course, is obvious. In Europe we have 
NATO, which is an alliance of 19 nations, joined together to 
defend and expand the sphere of democratic and free and open 
institutions.
    In Africa, such an institution as NATO at the moment does 
not exist.
    In Kosova, we crossed the Rubicon. We and our NATO allies 
have recognized the fact that under extreme circumstances, 
human rights violations trump national sovereignty. This will 
be studied by legal scholars for generations to come. For 
centuries, we have assumed that national sovereignty is the 
ultimate principle in the field of international relations, and 
it is a tribute to our all-too-slow evolution that we have now 
recognized that outrageous human rights violations, such as the 
ones perpetrated by the Milosevic regime against the Muslim 
Albanian Kosovars, cannot be tolerated by the civilized world.
    I think it is extremely important for all of us who wish to 
live in a realistic world to understand that we have to rejoice 
in cases where the civilized world is capable of taking action 
and work toward the time when the civilized world will be able 
to do so everywhere. But since in many places that is not the 
case today, this should not have been used and hopefully will 
not be used in the future for criticizing action where in the 
NATO sphere of influence action can be taken.
    Mr. Tancredo. Will the gentlemen yield?
    Mr. Lantos. I will yield in just a second. I think it is 
extremely important for us to condemn the outrageous government 
in Khartoum for these gigantic, sickening, horrendous, inhuman 
violations of human rights. I strongly urge my colleagues to 
support H. Con. Res. 75, and I am happy to yield to my friend 
from Colorado.
    Mr. Tancredo. Thank you for yielding, sir.
    I certainly did not intend for my comments to precipitate a 
debate on the whole issue of Kosovo, but I should say that 
there is a significant difference that I observe and did 
observe even while I was in the Sudan, in terms of our position 
vis-a-vis Sudan and Kosovo.
    Certainly everything that we were told existed in Kosovo 
with regard to human rights violations, and I certainly don't 
disagree that they existed, but everything we were told that 
was happening there, as I said, is happening in the Sudan.
    There is a different dimension in the Sudan. There is 
something going on there, by the way, that we did not mention, 
and I did not mention in my remarks, which does, in my mind, 
differentiate the matter quite dramatically. That is that in 
the Sudan I can observe, and I think all of us can observe, 
that there is the possibility of very direct threats to the 
national security interests of the United States.
    The resolution talks about that, in terms of the kind of 
terrorist activities that are supported by the state of Sudan, 
by the government in the north, by Khartoum, by the exportation 
of that terrorism, the fact that our embassies have been 
bombed. I mean, these things add a dimension that I think is 
extremely relevant when we start talking about whether or not 
it is appropriate for this government to take action.
    Beyond that, I should also say I would be very hesitant, in 
fact I would certainly oppose any direct military action on the 
part of the United States in Sudan, putting troops there 
ourselves, bombing it ourselves. People of Sudan, especially 
the people in the south, are asking only for the ability to 
take care of it themselves, to defend themselves. So there are 
significant differences that I would just like to put into the 
record.
    Mr. Bereuter. Would the gentleman yield?
    Mr. Lantos. I would be happy to yield.
    Mr. Bereuter. I thank the gentleman for yielding.
    I think the gentleman was correct in pointing out the 
capacity we have in NATO as a defensive alliance in Europe and 
the absence thereof from any such military capability, 
multilateral, even if it didn't involve the United States, in 
Africa. Beyond Sudan, of course, we have had the tragic loss of 
huge numbers of people in Rwanda. You could point to Eritrea 
and Ethiopia today. You could point to Congo where it is going 
on.
    I can't resist reminding my colleagues that today we are 
going to be voting on an amendment offered by Mr. Shays. It has 
a small bipartisan group of cosponsors, which is absolutely 
shocking and wrong headed in my judgment. It will ask that U.S. 
troop commitments in Europe be reduced from 100,000, where it 
has been reduced to that level, to 25,000 in the next three 
fiscal years. We could not have a combat division in Europe 
under that limitation.
    I do hope my colleagues will help in resisting this kind of 
issue. We have had burden sharing debates in the past, but 
nothing of that Draconian level.
    I thank the gentleman for yielding.
    Mr. Lantos. Reclaiming my time, I could not agree more 
strongly than I do with my very distinguished colleague from 
Nebraska. I think the proposal to reduce the U.S. military 
presence in Europe to a 25,000 troop level is preposterous, and 
I earnestly hope that that proposed amendment will be 
overwhelmingly defeated.
    I yield back the balance of my time.
    Chairman Gilman. Thank you, Mr. Lantos.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    I want to thank Mr. Payne for sponsoring this very 
important resolution. As he knows, because he was a very active 
participant, we had a hearing along with Ed Royce's 
Subcommittee, on May 27th, at which time we explored crimes 
against humanity in the Sudan. We heard from a number of very 
distinguished witnesses, including Dr. Millard Burr from the 
U.S. Committee on Refugees. He pointed out that the total 
estimated deaths, and this was as of December, 1998 so the 
number has grown, was 1.9 million individuals; per year about 
126,000; per month about 10,500; per week a little over 24,000; 
per day, approximately 356 people who were dying because of the 
slaughter.
    We also had a very heavy emphasis on the ongoing chattel 
slavery. We held a hearing 3 years ago, at which time we heard 
from people who had family members abducted by the slave owners 
in these raids. These heinous acts, where people are literally 
stolen from their homes and turned into slaves, that barbaric 
practice continues to this day.
    This resolution rightfully points out that we need to be 
far more proactive in trying to end, not just mitigate but end, 
this terrible practice of chattel slavery in addition to this 
genocidal war that's going on.
    Very important, too, and several of our witnesses spoke 
about this, and Mr. Tancredo spoke very eloquently about this 
as well, is this whole idea of a Khartoum veto with Operation 
Lifeline. I think it is outrageous. I mean, the UNICEF and the 
U.N. are doing their noblest best to try to feed as many people 
as possible, but when you turn to a government that is using 
food as a weapon and you need to gain or garner their 
permission in order to get the food to their people, we need to 
find some other way.
    Keep it going--try to reform it--but we need to find other 
means to get that vital food and medicine cargo to these people 
who are dying. Food is being used as a weapon, let there be no 
mistake about it.
    I just want to thank again Mr. Payne and Mr. Tancredo, who 
have taken an absolutely strong and active interest in this. As 
Mr. Gilman pointed out, to go to the Sudan on your first trip 
overseas trip certainly shows a seriousness about human rights 
and about people who are truly in grave distress. They die by 
the day, and we need to do more. We need a more activist 
policy.
    Again, thank you, Mr. Payne, for offering this.
    Chairman Gilman. Thank you, Mr. Smith.
    Any other Members seeking recognition? Mr. Gejdenson.
    Mr. Gejdenson. Mr. Chairman, I ask unanimous consent to 
have my statement placed in the record.
    Chairman Gilman. Without objection.
    Any other Member seeking recognition?
    If not, I yield myself sufficient time.
    The degree of suffering here in the Sudan is mind-boggling; 
1.9 million killed, the statistic that Mr. Smith just recited. 
The government of Sudan must remain isolated. Our Nation's 
long-term strategic interests demand that we fight this kind of 
militant Islamic fundamentalism that the government of Sudan 
has exhibited and no easing of sanctions should be permitted.
    There are times when our Nation must state clearly its 
abhorrence for state-sponsored behavior that's so egregious and 
so contrary to the interests of our Nation and of all peace-
loving nations. Accordingly, I commend our colleagues on this 
Committee who have recently traveled to the region and thank 
them for bringing this measure before us.
    Are there any further amendments? Mr. Tancredo.
    Mr. Tancredo. I have an amendment, I think, at the desk.
    Chairman Gilman. The clerk will report the amendment.
    Ms. Bloomer. ``Amendment offered by Mr. Tancredo. Page 8, 
line 19, strike ``and''; page 9, line 19, strike the period and 
insert a semicolon; page 9, after line 19, add the following: 
6, urges the Intergovernmental Authority for Development 
partners under the leadership of President Daniel Arap Moi to 
call on the government of Sudan to immediately stop the 
indiscriminate bombings in southern Sudan; and, 7, strongly 
condemns any governments who financially support the government 
of Sudan.''
    Chairman Gilman. The clerk will distribute the amendment. 
The gentleman is recognized for 5 minutes.
    Mr. Tancredo. Thank you, Mr. Chairman.
    I just want to make sure with this amendment that we are 
able to add every single aspect of whatever arsenal that we 
have, I use that figuratively, in terms of trying to stop the 
bombing immediately. I know in the resolution itself it 
suggests several actions that we should take, including 
supplying the south with SAM missiles, but I wanted just to 
make sure that we do not overlook the fact that there is the 
opportunity available to us to bring to the attention of the 
Sudan our deep concern about these bombings through the peace 
process. So that's really the purpose of this amendment, and 
also then to condemn any government, as I say, for supporting 
the government of the north.
    There are many aspects of this. One in particular, of 
course, is the construction of a pipeline that has--it is 
completed and was paid for by several interests, governments of 
Malaysia and China and business interests in Canada, but there 
are others, of course, who are also involved with supporting 
the government and so I just wanted to bring that to the 
attention of the Congress.
    Chairman Gilman. Thank you, Mr. Tancredo.
    Mr. Payne.
    Mr. Payne. I strongly support the resolution by Mr. 
Tancredo. There is no question that there is an 
intergovernmental agency, the IGAD partners led by President 
Moi, that have been conducting discussions. We urge them to, as 
he has indicated, to ask for the immediate halt of the bombing 
there in Sudan. I think that also condemning these countries 
from supporting this government, which is on our sanctions 
list, with their financial support simply is a way that will 
continue to see these atrocities continued unless there is some 
dramatic action taken by those who feel that this government 
should cease and desist.
    I would just like to indicate that I strongly support the 
amendment.
    Chairman Gilman. Thank you, Mr. Payne.
    Is there any further debate? If not, the question is now on 
the gentleman's amendment. As many as are in favor signify by 
saying aye. As many opposed say no.
    The ayes have appear to have it. The amendment is agreed 
to.
    Are there any further amendments to this measure?
    Mr. Payne. Mr. Chairman, I have an amendment at the desk.
    Chairman Gilman. The clerk will read the amendment.
    Ms. Bloomer. ``Amendment offered by Mr. Payne, page 8, line 
11, strike ``and''; page 9, line 7, strike the period and 
insert a semicolon; page 9, after line 7, add the following, 6, 
calls on the President to transmit to the Congress not later 
than 90 days after the date.''
    Mr. Payne. I move that the amendment be considered as read.
    Chairman Gilman. Without objection, the amendment is agreed 
to as having been read.
    The gentleman is recognized for 5 minutes on the amendment.
    Mr. Payne. Thank you, Mr. Chairman.
    This amendment calls on the President to report to Congress 
regarding the Operation Lifeline Sudan (OLS), the question of 
flight suspensions. As has been indicated, the government of 
Khartoum has the right to stop relief supplies from reaching 
the people in the south. This is certainly not a way to go.
    We have heard about the numbers of people who have perished 
during this struggle. Of course, the most vulnerable would be 
pregnant women, women nursing children, children under six, the 
elderly, hospital patients, handicapped people. All have died 
during the ineffective delivering of food through the 
government controlled Operation Lifeline Sudan.
    Relief efforts were hindered and had a severe setback 
earlier this year when Khartoum banned flights into southern 
Sudan for 2 months. The flight placed ban upon the entire 
region of Bahr el Ghazal on February 3, 1998, was the most 
comprehensive flight restriction since OLS's creation. Even at 
the urgent request of USAID, the government refused; 350,000 
people were in urgent need of assistance.
    I am gravely concerned about the human catastrophe that 
unfolds each year in southern Sudan. Operation Lifeline Sudan 
was established in 1989 by the United Nations in order to 
prevent the people in the south from dying of starvation. It is 
almost assisting them to starve rather than helping prevent 
them from starving.
    Twenty percent of USAID's assistance goes toward non-OLS 
NGO's working in areas outside the control of the government. I 
would hope that we could have additional funding to see that 
outside of the OLS, NGO's would have more support.
    The government has used food as a weapon, as we have heard. 
Starvation is an inexpensive war strategy and the government 
does it each year.
    This amendment also calls on the support of USAID's 
Sudanese Transition Assistance for Rehabilitation, known as 
STAR program, which helps to develop democracy in a civil 
society and a rule of law to the NDA, which is an opposition 
organization to the government.
    Mr. Chairman, I urge the adoption of the amendment.
    Chairman Gilman. Thank you, Mr. Payne.
    Mr. Royce.
    Mr. Royce. I urge support of the amendment from the 
gentleman from New Jersey, and I urge we pass the bill.
    Chairman Gilman. Are there any other Members seeking 
recognition or offering amendments? If not, the question is now 
on the Payne amendment to the underlying measure. All in favor 
signify by saying aye. All opposed say no.
    The ayes have it. The amendment is agreed to.
    The gentleman from New Jersey, Mr. Smith, is recognized to 
offer a motion.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Chairman, I move that the Chairman be requested to seek 
consideration of the pending resolution, H. Con. Res. 75, as 
amended, on the Suspension Calendar.
    Chairman Gilman. Thank you, Mr. Smith.
    The question is on the motion from the gentleman from New 
Jersey, Mr. Smith. As many as are in favor of the motion 
signify by saying aye. As many as opposed signify by saying no.
    The aye haves it. The motion is agreed to.
    Without objection, the Chairman will be permitted to make 
motions under Rule 22 relative to a conference on this bill or 
a companion measure from the Senate.
    Further proceedings on this measure are now postponed.
    We will now return to H. Res. 62, which is pending with a 
second degree amendment by Mr. Payne and a first degree 
amendment by Mr. Gejdenson.
    Mr. Payne is recognized for a unanimous consent request. 
Mr. Payne.
    Mr. Payne. Without objection, Mr. Chairman, I would ask 
that the pending Payne second degree amendment and the 
Gejdenson first degree amendment be withdrawn, and I have a 
further amendment.
    Chairman Gilman. Without objection, so ordered. Is there 
any further discussion on this measure?
    Any further amendments, Mr. Payne?
    Mr. Payne. No. Mr. Gejdenson compromised.
    Chairman Gilman. On the Gejdenson amendment, the clerk will 
distribute. The clerk will read the amendment.
    Ms. Bloomer. ``Amendment offered by Mr. Gejdenson, page 3, 
strike lines 2 through 4 and insert the following: First, 
welcomes the cessation of hostilities and calls for the respect 
of human rights by all combatants; second, applauds the 
effective diplomacy.''
    Chairman Gilman. Without objection, the amendment is 
considered as having been read.
    I recognize Mr. Gejdenson for 5 minutes on the amendment.
    Mr. Gejdenson. Thank you, Mr. Chairman. I commend Chairman 
Royce and Mr. Payne for working out the differences that 
existed. We all share the same goals here. This is a positive 
step for the Committee, and I urge its passage.
    Chairman Gilman. Any other Members seeking recognition?
    Mr. Royce. Let me add, Mr. Chairman, I thank the gentleman. 
This is a serious business. We have tens of thousands of 
casualties there; 6,000 people in 2 days alone lost their lives 
in the latest carnage around the capitol. Forced amputations of 
arms, limbs, lips of women and children occur on a continuing 
basis and so we need to reach closure on this resolution and 
get this passed as soon as possible.
    I thank the gentleman for working out this amendment.
    Chairman Gilman. Thank you, Mr. Royce.
    Mr. Payne.
    Mr. Payne. Just let me thank the Chairman of the Africa 
Subcommittee for his continued interest and cooperation. I 
appreciate our being able to move this very important 
resolution forward, and for being able to come up with language 
acceptable to both of us. I appreciate this support and I urge 
adoption of the resolution.
    Chairman Gilman. Thank you, Mr. Payne.
    Are there any other further Members seeking recognition? We 
are now on the Gejdenson amendment. All in favor signify by 
saying aye. Opposed say no.
    The aye have it. The Gejdenson amendment is agreed to.
    Are there any further amendments or further discussion on 
the overall bill?
    The question is now on agreeing to the Subcommittee 
recommendation as amended. As many as are in favor of the 
amendment say aye. As many as opposed say no.
    The amendment is agreed to.
    The gentleman from New Jersey, Mr. Smith, is recognized to 
offer a motion.
    Mr. Smith. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending resolution H. 
Res. 62, as amended, on the suspension calendar.
    Chairman Gilman. The question is now on the motion by the 
gentleman from New Jersey, Mr. Smith. As many as are in favor 
of the motion signify by saying aye. As many as opposed say no.
    The ayes have it. The ayes have it. The motion is agreed 
to.
    Any further business before the Committee? If not, the 
Committee stands adjourned and I thank the Members.
    Please don't forget the European Council meeting at 2 p.m.
    [Whereupon, at 11:20 a.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                             June 10, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T3607.001
    
    [GRAPHIC] [TIFF OMITTED] T3607.002
    
    [GRAPHIC] [TIFF OMITTED] T3607.003
    
    [GRAPHIC] [TIFF OMITTED] T3607.004
    
    [GRAPHIC] [TIFF OMITTED] T3607.005
    
    [GRAPHIC] [TIFF OMITTED] T3607.006
    
    [GRAPHIC] [TIFF OMITTED] T3607.007
    
    [GRAPHIC] [TIFF OMITTED] T3607.008
    
    [GRAPHIC] [TIFF OMITTED] T3607.009
    
    [GRAPHIC] [TIFF OMITTED] T3607.010
    
    [GRAPHIC] [TIFF OMITTED] T3607.011
    
    [GRAPHIC] [TIFF OMITTED] T3607.012
    
    [GRAPHIC] [TIFF OMITTED] T3607.013
    
    [GRAPHIC] [TIFF OMITTED] T3607.014
    
    [GRAPHIC] [TIFF OMITTED] T3607.015
    
    [GRAPHIC] [TIFF OMITTED] T3607.016
    
    [GRAPHIC] [TIFF OMITTED] T3607.017
    
    [GRAPHIC] [TIFF OMITTED] T3607.018
    
    [GRAPHIC] [TIFF OMITTED] T3607.019
    
    [GRAPHIC] [TIFF OMITTED] T3607.020
    
    [GRAPHIC] [TIFF OMITTED] T3607.021
    
    [GRAPHIC] [TIFF OMITTED] T3607.022
    
    [GRAPHIC] [TIFF OMITTED] T3607.023
    
    [GRAPHIC] [TIFF OMITTED] T3607.024
    
    [GRAPHIC] [TIFF OMITTED] T3607.025
    
    [GRAPHIC] [TIFF OMITTED] T3607.026
    
    [GRAPHIC] [TIFF OMITTED] T3607.027
    
    [GRAPHIC] [TIFF OMITTED] T3607.028
    
    [GRAPHIC] [TIFF OMITTED] T3607.029
    
    [GRAPHIC] [TIFF OMITTED] T3607.030
    
    [GRAPHIC] [TIFF OMITTED] T3607.031
    
    [GRAPHIC] [TIFF OMITTED] T3607.032
    
    [GRAPHIC] [TIFF OMITTED] T3607.033
    
    [GRAPHIC] [TIFF OMITTED] T3607.034
    
    [GRAPHIC] [TIFF OMITTED] T3607.035
    
    [GRAPHIC] [TIFF OMITTED] T3607.036
    
    [GRAPHIC] [TIFF OMITTED] T3607.037
    
    [GRAPHIC] [TIFF OMITTED] T3607.038
    
    [GRAPHIC] [TIFF OMITTED] T3607.039
    
    [GRAPHIC] [TIFF OMITTED] T3607.040
    
    [GRAPHIC] [TIFF OMITTED] T3607.041
    
    [GRAPHIC] [TIFF OMITTED] T3607.042
    
    [GRAPHIC] [TIFF OMITTED] T3607.043
    
    [GRAPHIC] [TIFF OMITTED] T3607.044
    
    [GRAPHIC] [TIFF OMITTED] T3607.045
    
    [GRAPHIC] [TIFF OMITTED] T3607.046
    
    [GRAPHIC] [TIFF OMITTED] T3607.047
    
    [GRAPHIC] [TIFF OMITTED] T3607.048
    

</pre></body></html>
